No. 20-255
IN THE

Supreme Court of the United States
————
MAHANOY AREA SCHOOL DISTRICT,
v.

Petitioner,

B. L., A MINOR, by and through her father,
Lawrence Levy and her mother, Betty Lou Levy,
Respondents.
————
On Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit
————
BRIEF OF HISD STUDENT CONGRESS,
KENTUCKY STUDENT VOICE TEAM,
MARCH FOR OUR LIVES ACTION FUND,
STUDENTS FOR A SENSIBLE DRUG POLICY,
AND STUDENT VOICE AS AMICI CURIAE
IN SUPPORT OF RESPONDENTS
————
MICHAEL J. GRYGIEL
Counsel of Record
GREENBERG TRAURIG, LLP
54 State Street, 6th Floor
Albany, NY 12207
(518) 689-1400
grygielm@gtlaw.com
[Additional Counsel Listed On Inside Cover]
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

VINCENT H. CHIEFFO
CAROLINE KORPIEL
1840 Century Park East
Suite 1900
Los Angeles, CA 90067
(310) 586-7700
chieffov@gtlaw.com
JASON K. HICKS
10845 Griffith Peak Drive
Suite 600
Las Vegas, NV 89135
(702) 792-3773
hicksja@gtlaw.com
GEROND J. LAWRENCE
Terminus 200
3333 Piedmont Road NE
Suite 2500
Atlanta, GA 30305
(678) 553-2100
lawrencege@gtlaw.com

KATIE TIPPER-MCWHORTER
1000 Louisiana Street
Suite 1700
Houston, TX 7700
(305) 579-0500
tipperk@gtlaw.com
JORGE COSS
2375 East Camelback Road
Suite 700
Phoenix, AZ 85016
(602) 445-8000
cossj@gtlaw.com
BETH A. NORROW
450 South Orange Avenue
Suite 650
Orlando, FL 32801
(407) 420-1000
norrowb@gtlaw.com

FRANCESCA CILIBERTI-AYRES
1144 15th Street, Suite 3300
Denver, CO 80202
(303) 572-6500
ciliberti-ayresf@gtlaw.com
Attorneys Pro Bono Publico for Amici Curiae
March 31, 2021

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ....................................... iii
INTEREST OF AMICI CURIAE ................................ 1
INTRODUCTION AND SUMMARY OF
ARGUMENT ............................................................ 4
ARGUMENT ................................................................ 7
I. STUDENTS HAVE HISTORICALLY
USED THEIR VOICES IN THE
VANGUARD OF POLITICAL AND
SOCIAL MOVEMENTS ................................... 7
A. Social Media Empowers Student
Activism and Civic Engagement ................. 7
B. Students Are Best Positioned To Communicate Information About Public
Schools ....................................................... 10
C. Social Science Evidence Disproves
That Social Media Contributes to
Student Misbehavior ................................. 12
II. TINKER’S APPLICATION OUTSIDE
THE
SCHOOL
ENVIRONMENT
WOULD INFRINGE PUBLIC SCHOOL
STUDENTS’ FIRST AMENDMENT
RIGHTS ........................................................... 15
A. Tinker Should Not Be Extended to
Off-Campus Student Speech ..................... 15
B. B.L.’s Speech Away From School Was
Impermissibly Punished Based on
School Authorities’ Disapproval of
Her Choice of Language ............................ 17
(i)

ii
TABLE OF CONTENTS—Continued
Page
C. Petitioner’s Boundless “Targeting”
Rubric Does Not Justify the
Extension of School Authority to OffCampus Public Student Speech ................ 19
D. Participation
in
Extracurricular
Activities Does Not Relinquish a
Student’s First Amendment Rights .......... 24
III. MISFIRED DISCIPLINARY DECISIONS
CAUSE IRREPARABLE HARM TO THE
“ONCE IN A LIFETIME” EXPERIENCE
REPRESENTED BY HIGH SCHOOL ........... 28
CONCLUSION .......................................................... 31

iii
TABLE OF AUTHORITIES
Federal Cases

Page(s)

Ashcroft v. Free Speech Coalition,
535 U.S. 234 (2002) ......................................... 27
Bell v. Itawamba County School Board,
799 F.3d 379 (5th Cir. 2015)
(en banc) .............................................. 12, 20, 26
B.L. ex rel. Levy v. Mahanoy Area
School District,
964 F.3d 170 (3d Cir. 2020) .....................passim
Bethel School District No. 403 v. Fraser,
478 U.S. 675 (1986) ................................... 18, 19
Cohen v. California,
403 U.S. 15 (1971) ............................................. 4
Cuff v. Valley Central School Distrist,
677 F.3d 109 (2d Cir. 2012) ............................ 18
Grayned v. City of Rockford,
408 U.S. 104 (1972) ................................... 15, 16
Hazelwood School Disrict v. Kuhlmeier,
484 U.S. 260 (1988) ......................................... 19
J.S. ex rel Snyder v. Blue Mountain Sch.
Dist., 650 F.3d 915 (3d Cir. 2011)
(en banc) .......................................................... 12
Johnson v. Zerbst,
304 U.S. 458 (1983) ......................................... 26
LaTrieste Restaurant and Cabaret, Inc. v.
Village of Port Chester,
40 F.3d 587 (2d Cir. 1994) .............................. 25

iv
TABLE OF AUTHORITIES—Continued
Page(s)
Layshock ex rel. Layshock v. Hermitage
School District,
650 F.3d 205 (3d Cir. 2011) (en banc) ............ 22
Lowery v. Euverard,
497 F.3d 584 (6th Cir. 2007) ........................... 26
Manhattan Community Access Corp.
v. Halleck,
587 ___ U.S. ___, 139 S. Ct. 1921 (2019) .......... 5
Mendocino Environmental Center v.
Mendocino County,
192 F.3d 1283 (9th Cir. 1999) ......................... 27
Morse v. Frederick,
551 U.S. 393 (2007) ..................................... 6, 19
Packingham v. North Carolina,
137 S. Ct. 1730 (2017) ............................. 5, 6, 12
Reno v. ACLU,
521 U.S. 844 (1997) ......................................... 12
Rosenberg v. Rector and Visitors of
University of Virginia,
515 U.S. 819 (1995) ........................................... 5
J.S. ex rel Snyder v. Blue Mountain Sch.
District,
650 F.3d 915 (3d Cir. 2011) (en banc) ............ 12
Thomas v .Boad of Education, Granville
Central School District,
607 F.2d 1043 (2d Cir. 1979), cert.
denied, 444 U.S. 1081 (1980) ...................passim

v
TABLE OF AUTHORITIES—Continued
Page(s)
Tinker v. Des Moines Indepedent
Community School District,
393 U.S. 503 (1969) ..................................passim
T.V. ex rel. B.V. v. Smith-Green
Community School Corporation,
807 F.Supp. 2d 767 (N.D. Ind. 2011) .............. 28
Constitution
U.S. Const. amend. I ...................................passim
Other Authorities
Martha Aguirre Rubio & Raj Salhotra,
Students should have a say in next HISD
Superintendent, HOUSTON CHRONICLE
(Mar. 25, 2018), https://www.houstonchr
onicle.com/opinion/outlook/article/Studen
ts-should-have-say-in-next-HISD-12777
894.php ............................................................ 24
Monica Anderson & Jingjing Jiang, Teens,
Social Media & Technology 2018, PEW
RESEARCH CENTER (May 31, 2018),
https://www.pewresearch.org/internet/20
18/05/31/teens-social-media-technology2018 ................................................................. 23
Brooke Auxier, Activism On Social Media
Varies By Race And Ethnicity, Age,
Political Party, The Pew Research Center
(July 13, 2020), https://pewrsr.ch/304H
Thw .............................................................. 9, 10

vi
TABLE OF AUTHORITIES—Continued
Page(s)
David Coulby, Tim Harper, PREVENTING
CLASSROOM
DISRUPTION:
POLICY,
PRACTICE AND EVALUATION IN URBAN
SCHOOLS
(Routledge
2012)
(first
published in 1987)...................................... 12-13
Carolyn Elefant & Nicole Black, Social
Media For Lawyers: The Next Frontier Xv
(2010) ................................................................. 8
Robert Everhart, Understanding Student
Disruption and Classroom Control, 57
HARV. EDUC. REV. 77 (1987) ........................... 13
Christine Greenhow and Emilia Askari,
Learning and Teaching with Social
Network Sites: A Decade of Research in K12 Related Education, 22 EDUCATION AND
INFORMATION TECHNOLOGIES 623 (2017) ....... 14
Michael J. Grygiel, Back to the Future: The
Second Circuit’s First Amendment
Lessons for Public Student Digital
Speech, 71 SYRACUSE L. REV. 1
(forthcoming 2021) .................................... 20, 25
Kentucky HB 178 (March 29, 2021) .................. 11
National Center for Education Statistics,
U.S. Dep’t of Educ., NCES 2020-063,
Indicators of School Crime and Safety:
2019 (2020) ................................................ 13, 14
Mary-Rose Papandrea, Student Speech
Rights in the Digital Age, 60 FLA. L. REV.
1027 (2008) ........................................................ 7

vii
TABLE OF AUTHORITIES—Continued
Page(s)
Emanuelle Sippy and Sanaa Kahloon, On
the Kentucky school board and in their
communities, youth are making their
voices heard, COURIER-JOURNAL (2020),
https://courier-journal.com/story/opinion/
2020/10/09/kbe-kentucky-youth-forefronttodays-student-voice-movement/5902792
002/ ............................................................. 23-24
Arivumani Srivastava, School tax credit
bill will make Ky schools more unequal.
Don’t override governor’s veto, LEXINGTON
HERALD LEADER (Mar. 26, 2021), https://
www.kentucky.com/opinion/op-ed/article
250227545.html .............................................. 24
Student Voice, Roadmap to Authentically
Engage Youth Voice in the U.S.
Department of Education, https://www.
stuvoice.org/resources/youth-voice-in-edreport (last visited March 30, 2021) ................. 9
Kevin M. Thomas, Blanche W. O’Bannon &
Natalie Bolton, Cell Phones in the
Classroom: Teachers’ Perspectives of
Inclusion, Benefits, and Barriers, 30
COMPUTERS IN THE SCHOOLS 295 (2013) .... 14-15
Emily Gold Waldman, Badmouthing
Authority: Hostile Speech About School
Officials and the Limits of School
Restrictions, 19 WM. & MARY BILL OF RTS.
J. 591 (2011) .................................................... 27

viii
TABLE OF AUTHORITIES—Continued
Page(s)
Emily Gold Waldman, Regulating Student
Speech: Suppression Versus Punishment,
85 Ind. L. J. 1113 (Summer 2010) .................. 25
Antoine Van Den Beemt, Marieke Thurlings
& Myrthe Willems, Towards An Understanding Of Social Media Use In The
Classroom: A Literature Review, 29
TECHNOLOGY, PEDAGOGY AND EDUCATION
35 (2020) .......................................................... 14

INTEREST OF AMICI CURIAE1
Amici Curiae are student activist organizations
dedicated to the pursuit of social justice:
The Houston Independent School District
Student Congress (HISD StuCon), an unincorporated association, represents more than 215,000
students in the largest school district in Texas.
Founded in 2014, HISD StuCon is an independent
student-run, student-led organization that pushes
stakeholders across Houston and the State of Texas to
take students seriously and facilitate their agency.
Over the years, HISD StuCon’s high school students
have filed an amicus brief in the Texas Supreme
Court, have testified in the Texas Legislature, and
have regularly spoken at HISD school board meetings
on issues that directly impact their lives--such as
school inequity, student mental health, coronavirus
reopening plans, and student free speech.
The Kentucky Student Voice Team supports
students as research, policy, and advocacy partners
working to ensure that Kentucky’s education system
is as equitable, just, and excellent as it can be.
Consisting of approximately 100 self-selected youth
from across the state, it was formed in 2012, was
incubated until 2020 by The Prichard Committee
for Academic Excellence, and was incorporated as a
youth-led independent organization in 2021. The
1

Pursuant to Sup. Ct. R. 37, counsel pro bono publico for amici
curiae state that no party’s counsel authored this brief in whole
or in part, no party or party’s counsel made a monetary contribution intended to fund the preparation or submission of this
brief, and no person other than counsel for amici curie made a
monetary contribution intended to fund the preparation or
submission of this brief. All parties have consented to the filing
of the brief.

2
organization has filed for 501(c)(3) status, and the
Bluegrass Community Foundation serves as its fiscal
sponsor.
Its website is located at https://www.
kystudentvoiceteam.org/home.
March For Our Lives Action Fund is a 501(c)(4)
social welfare organization incorporated in Delaware.
Since February 2018, students from across the United
States have called for common-sense gun legislation
reforms that will save the lives of more than 3,000
young people each year, including implementing
universal, comprehensive background checks; creating a searchable database for gun owners; investing
in violence intervention programs, specifically in
disenfranchised communities; funding the Centers for
Disease Control to research gun violence so that
reform policies are backed up by data; and banning
high-capacity magazines and semi-automatic assault
rifles. The organization’s informational website can be
found at www.marchforourlives.com.
Students for Sensible Drug Policy (SSDP) is
the largest global youth-led network dedicated to
ending the War on Drugs. At its heart, SSDP is a
grassroots organization, led by a Board of Directors
primarily elected by and from our student and youth
members. It brings young people of all political and
ideological orientations together to have honest conversations about drugs and drug policy. SSDP creates
change by providing a platform where members
collaborate, communicate, share resources with, and
coach each other to generate policy change, deliver
honest drug education, and promote harm reduction.
Founded in 1998, SSDP is comprised of thousands
of members in hundreds of communities around
the globe. The organization’s website is located at
https://ssdp.org/about/.

3
Student Voice is a by-students, for-students
501(c)(3) nonprofit organization incorporated in
Delaware that works in all 50 states to equip students
as storytellers, organizers, and institutional partners
who advocate for student-driven solutions to
educational inequity. Through direct civic action,
Student Voice helps students hold their schools and
surrounding communities accountable to the Student
Bill of Rights and prepares them to become lifelong
agents of social and political change. The organization’s website is StuVoice.org, and it can be followed
on social media at @Stu_Voice and #StuVoice.
Amici are unified in their commitment to progressive reform initiatives in the areas in which their
respective missions are focused, and their use of social
media in communicating their messages to fellow
students and the general public is instrumental to
the achievement of their policy objectives. With
memberships composed of public high school students,
amici depend on the First Amendment principle
established in B.L. ex rel. Levy v. Mahanoy Area Sch.
Dist., 964 F.3d 170 (3d Cir. 2020), for protection of
their often critical, provocative, and resistant out-ofschool speech from school punishment. Without the
“clarity and predictability” (id. at 188) afforded by
the ruling in Levy, amici’s constitutional rights will
inevitably be compromised as they refrain from
speaking out on controversial matters pertaining
to the operation of public school systems, to the
detriment of an informed community. The First
Amendment may not give a public high school student
the right to wear Cohen’s jacket in the classroom
setting, but it unquestionably protects a student’s
right to wear the same jacket outside of school or to
post the same profane anti-government message on
social media — even with the knowledge that the

4
message will likely come to the attention of school
officials. Cohen v. California, 403 U.S. 15 (1971)
(overturning breach of peace conviction of Vietnam
War protestor for wearing inside a courthouse a jacket
bearing the slogan “Fuck the Draft”).
INTRODUCTION AND
SUMMARY OF ARGUMENT
Petitioner Mahanoy Area School District’s (“School
District”) brief begins with the claim that this Court’s
landmark decision in Tinker v. Des Moines Indep.
Cmty. Sch. Dist., 393 U.S. 503 (1969), does not prohibit
the nation’s public schools from regulating their
students’ speech outside of school whenever it results
in disruption inside the school. Pet. Br. 13-22.
Tethered to a string of ancient state Supreme Court
cases decided decades before Tinker, this argument
transmogrifies Tinker from a location-based to a
harm-based precedent. Id. at 15, 17-18. Its novelty
has caught the amici, who rely on Tinker’s restricted
application to the school environment to safeguard
their First Amendment rights, by surprise. Presumably it will also come as a surprise to this Court, which
has steadfastly limited public schools’ ability to punish
student speech that is “outside school-owned, operated, or -supervised channels and that is not
reasonably interpreted as bearing the school’s
imprimatur.” Levy v. Mahanoy Area Sch. Dist., 964
F.3d at 189 (Krause, J.).
According to Petitioner, because social media has
made the determination of the doctrinal “schoolhouse
gate” boundary more difficult in some cases — a
concern which is overstated — Tinker’s restrictions on
public school authority over student speech should be
abandoned depending on the “severity of the on-

5
campus harm” (Pet. Br. 18) attributed to the speech.
Even assuming that student expression in the “modern
public square” (Packingham v. North Carolina, 137
S. Ct. 1730, 1737 (2017)) of social media has, as
asserted by the United States, to some degree rendered
Tinker’s schoolhouse gate concept “metaphorical” (SG
Br. 13), that does not justify such a radical departure
from this Court’s public student speech jurisprudence.
Manhattan Community Access Corp. v. Halleck, 587
U.S. ___, 139 S. Ct. 1921, 1937 n.2 (2019) (Sotomayor,
J., dissenting) (“Regardless of whether something ‘is a
forum more in a metaphysical than in a spatial or
geographic sense, . . . the same [First Amendment]
principles are applicable.’”) (quoting Rosenberg v.
Rector and Visitors of Univ. of Va., 515 U.S. 819, 830
(1995)). The dramatic expansion of school authority
called for by Petitioner would “erase the dividing line
between speech ‘in the school context’ and beyond it,
a line which is vital to young people’s free speech
rights.’” Levy, 964 F.3d at 188 (citation omitted).
The preservation of that dividing line is vitally
important to the exercise of the amici’s First Amendment rights. Levy made explicit what was implicit in
Tinker: when students express themselves outside of
school and beyond school supervision, they are entitled
to full constitutional protection of their free speech
rights the same as any other citizen — no matter how
“inappropriate, uncouth, or provocative” their expression. Id. at 189. Otherwise, as underscored in Levy,
students confronted with the potential application of
Tinker’s “material and substantial disruption” test
will censor their off-campus speech to avoid on-campus
punishment. Id. (“Holding Tinker inapplicable to
off-campus speech also offers the distinct advantage of
offering up-front clarity to students and school
officials.”).

6
This Court has acknowledged that the exchange of
information on social media is “integral to the fabric of
our modern society and culture.” Packingham, 137
S. Ct. at 1730. Nevertheless, the School District would
have the Court “swipe left” by ignoring the established
limitations its decisions have imposed on public
schools’ authority over their students off-campus
speech. As discussed more fully below, Tinker’s application, while appropriate in accounting for the special
characteristics of the educational environment, provides inadequate protection to students’ First Amendment rights outside of school. Further, if applied to
minimize constitutional scrutiny over student speech
tied to participation in extracurricular activities, it
will grant public school districts excessive authority to
punish student expression based on school officials’
retaliatory disapproval of its message — a path to
censorship repudiated by Justice Alito’s concurrence
in Morse v. Frederick, 551 U.S. 393, 423 (2007).
Amici agree that “B.L.’s Snap is not close to the line
of student speech that schools may regulate.” Levy,
964 F.3d at 195 (Ambro, J., concurring in the judgment). Yet, they fear that Tinker’s incautious expansion in the manner urged by Petitioner and the United
States will erode that line and subject their similarly
protected social advocacy to potential punishment by
their schools — especially when their speech criticizes
the effectiveness or fairness of school policies or the
conduct of school personnel. That would displace the
“up-front clarity” of Levy’s constitutional rule with
uncertainty and confusion, stifling the amici’s right
to speak out on controversial issues. Id. at 189. The
First Amendment, as applied in this Court’s public
student speech jurisprudence, prohibits such a result.

7
ARGUMENT
STUDENTS HAVE HISTORICALLY USED
THEIR VOICES IN THE VANGUARD OF
POLITICAL AND SOCIAL MOVEMENTS
A. Social Media Empowers Student Activism and Civic Engagement.
Students in our nation’s public schools play a critical
— albeit often overlooked and undervalued — role in
our democracy. Their civic engagement should not be
stifled simply because it challenges school authority.
Throughout history, student organizations such as the
amici have played instrumental roles in momentous
political and social movements. For decades, youth
across the country have used their voices to express
their views, impact policies, and effect change. During
the Civil Rights movement, for example, student
organizations staged sit-ins and marched in protest of
segregation laws, challenged racism during Freedom
Rides, and advocated for voter rights legislation.
Student organizations have consistently embraced
what former student activist and later Congressman
John Lewis called “good trouble” — fearless agitation
designed to provoke, challenge, and move the nation
forward. Students’ reliance on social media is not
only a critical component of social activism and
civic engagement, but important to their cultural
development and identity formation. See Mary-Rose
Papandrea, Student Speech Rights in the Digital Age,
60 FLA. L. REV. 1027, 1030 (2008) (“The importance of
these new technologies to the development of not only
their social and cultural connections but also their
identities should not be underestimated.”).
Student involvement in social movements has
endured over time. In each era, student organizations

8
have adapted to and embraced technology to promote
their initiatives and expand their reach. In today’s
digital age, the Internet provides “a global experience
that transcends language, culture, and philosophy,
permitting the transfer of information across borders
and time zones instantaneously.” Carolyn Elefant &
Nicole Black, Social Media For Lawyers: The Next
Frontier Xv (2010). Social media provides a platform
for users to express opinions and exchange points of
view on any number of issues — from the melancholy,
isolation, and frustrations of pandemic-induced
quarantine life, to the social, political, and ethical
perspectives implicated by government policy proposals, presidential debates, and other matters of
public concern. Popular social media platforms such
as Instagram, Twitter, and Facebook have become
participatory vehicles indispensable to the support of
social and political causes.
Social media has empowered American teens not
only to tell their stories and share their opinions, but
to generate support for their perspectives and mobilize
collective action on a national and even global scale.
While social movements of the 1950s used pamphlets,
telephone calls, and mass meetings to convey information and coordinate support from the public at
large, today’s activism thrives from online engagement and the use of social media to instantaneously
disseminate messages to what may be a global
audience.
For example, in 2016 the Houston Independent
School District Student Congress (HISD Student
Congress) organized a meme campaign on Facebook
that raised awareness about chronic underfunding in
their school district. In the caption under the posts,
the organization provided information regarding the

9
school district’s budget cuts and also provided a link to
its education summit, which addressed the budget
cuts and other issues impacting students in the
district. HISD Student Congress’s Instagram and
Twitter pages also post virtual whiteboards with
sticky notes — written by students — about issues,
common themes, and possible solutions on topics such
as mental health, school safety, and online learning.
Similarly, Student Voice developed a Roadmap to
Authentically Engage Youth Voice in the U.S. Department of Education, and used social media to reach
thousands of students from all 50 states through a
digital survey focused on a vision for the next
Department of Education. On Twitter, Student Voice
used the hashtag #StartWithStudents to raise awareness around its proposed recommendations to the
Department, which included incorporating students
on Department committees and roundtables and hiring a staff member for youth engagement. Student
Voice also used Facebook to broadcast a live online
press conference, where eight high school students
from Maryland, New York, Missouri, Kentucky,
Georgia, Montana, and California spoke about issues
in their schools that the Department could address by
meeting the organization’s recommendations.
According to a 2020 Pew Research Center study,
social media users under the age of 30 are more likely
than those above that age to use a hashtag related to
a political or social issue to encourage others to take
action on issues they see as important. Brooke Auxier,
Activism On Social Media Varies By Race And
Ethnicity, Age, Political Party, The Pew Research
Center (July 13, 2020). https://pewrsr.ch/304HThw.
The study also found Black and Hispanic social media
users, as compared to Caucasian users, to be nearly

10
twice as likely to find social media very or somewhat
important for finding other people who share their
views about personally salient issues. Id. There are
similar racial gaps when users are asked about the
importance of these sites as a means for getting
involved with issues they care about or as providing a
venue for the expression of their political opinions. Id.
Curtailing students’ First Amendment rights on social
media outside of school would therefore likely disproportionately impact students from historically underrepresented groups.
B. Students Are Best Positioned To Communicate Information About Public
Schools.
The right to speak out on matters of public concern
is deeply engrained in First Amendment law and
allows Americans to participate in self-governance.
The ability to communicate on social media has
immediate relevance for high school students, who are
not yet of voting age but have a constitutional right to
participate in public discourse, including on matters
directly impacting their demographic cohort.
High school students are best positioned to convey
information based on their day-to-day experience
regarding public school systems and their operation.
For example, in 2015, after lobbying for a Texas school
funding bill that was unsuccessful, then high school
students Zaakir Tameez and Amy Fan authored an
Amicus Brief on behalf of the HISD Student Congress
to the Texas Supreme Court addressing the lack of
adequate public school funding in their district. In
their brief, the students shed light on several issues
within the classroom, such as the lack of funding
for high school music programs, large class sizes,
outdated textbooks, and ineffective teaching at

11
various HISD schools. The organization also took to
social media to explain its position and was granted a
radio interview on the school district’s educational
deficiencies.
Similarly, the Kentucky Student Voice Team, as
part of a student advocacy campaign, used the handle
“#SaveOurSeats” on social media to spread awareness
on Kentucky House Bill 178, which would remove the
student and teacher representatives from the district’s
board of education. The organization’s Instagram
page included the telephone number for state lawmakers and provided supporters with a script to follow
when calling in support of preserving the non-voting
student and teacher board seats. Protection of these
seats directly impacts students’ representation and
participation in the Kentucky political process.
Finally, since 2018, Student Voice has trained more
than 50 student storytellers across the United States
through its Journalism Fellowship and Press Corps
in first-person opinion editorial writing and news
coverage about their experiences in schools. Student
Voice’s storytelling initiatives address their view that
public narratives around schools often rely on data,
research, and the dynamics of major policy actors,
without placing this information in the context of
students' lived experiences. Student Voice Journalism
Fellows flip the script of national conversations about
education, putting the experiences and needs of
students at the forefront through first-person storytelling in major outlets such as The Washington Post,
NBC News, and CNN.
Throughout history, American students have used
their speech in the vanguard of political and social
movements. Employment of their First Amendment
rights should not be impaired merely because they are

12
exercised on social media. The First Amendment
demands precisely the opposite. Reno v. ACLU, 521
U.S. 844, 870, 885 (1997); Packingham, 137 S. Ct. at
1736-37.
C. Social Science Evidence Disproves
That Social Media Contributes to
Student Misbehavior.
Federal court opinions tend to reflect a dystopian
conception of public secondary education, erroneously
attributed to the prevalence of social media, as
justification for the claim that prevention of public
schools’ degeneration into chaotic havens overrun with
undisciplined and uncontrollable students requires
new First Amendment exceptions. See, e.g., J.S. ex rel
Snyder v. Blue Mountain Sch. Dist., 650 F.3d 915, 95051 (3d Cir. 2011) (en banc) (Fisher, J., dissenting)
(“But with near-constant student access to social
networking sites on and off campus, when offensive
and malicious speech is directed at school officials and
disseminated online to the student body, it is
reasonable to anticipate an impact on the classroom
environment.”); Bell v. Itawamba Cnty. Sch. Bd., 799
F.3d 379, 435 (5th Cir. 2015) (en banc) (Prado, J.,
dissenting) (“I share the majority opinion’s concern
about the potentially harmful impact of off-campus
online speech on the on-campus lives of students. The
ever-increasing encroachment of off-campus online
speech and social-media speech into the campus,
classroom, and lives of school students cannot be
overstated.”). However, empirical evidence does not
support this view of the nation’s public schools.
Disruptions in the classroom existed long before the
advent of social media and have been the subject of
extensive studies. See, e.g., David Coulby, Tim
Harper, PREVENTING CLASSROOM DISRUPTION: POLICY,

13
PRACTICE AND EVALUATION IN URBAN SCHOOLS
(Routledge 2012) (first published in 1987); Robert
Everhart, Understanding Student Disruption and
Classroom Control, 57 HARVARD EDUCATIONAL REVIEW
77 (1987). The introduction of social media has had
little if any impact on in-school student behavior. To
the contrary, students are in fact less violent and
better behaved than at any time in modern history. In
its comprehensive report on school crime and safety
released in July 2020, the United States Department
of Education engaged in a detailed analysis of the
school environment in elementary and secondary
schools throughout the United States. National
Center for Education Statistics, U.S. Dep’t of Educ.,
NCES 2020-063, Indicators of School Crime and
Safety: 2019 (2020). The study found that during the
period from 1999-2000 to 2017-2018, student bullying
defined as occurring at least once a week decreased
from 29 percent to 14 percent, and student verbal
abuse of teachers defined as occurring at least once
a week decreased from 13 percent to 6 percent. Id.
at 48. Further, student sexual harassment of other
students defined as occurring at least once a week
decreased from 4 percent in 2003–2004 (the first year
of data collection for this issue) to 1 percent in 20172018. Id. at 66-68.
As this data demonstrates, the learning environment in our nation’s public schools has not become
unruly or unmanageable. Cf. Tinker, 393 U.S. at 525
(Black, J., dissenting) (“One does not need to be a
prophet or the son of a prophet to know that after the
Court’s holding today some students in Iowa schools
and indeed in all schools will be ready, able, and
willing to defy their teachers on practically all orders.
This is the more unfortunate for the schools since
groups of students all over the land are already

14
running loose, conducting break-ins, sit-ins, lie-ins
and smash-ins.”). In that same Department of Education study, teachers were asked to rate their ability to
manage classroom behavior. Id. The study found that
“93 percent of teachers reported that they were able to
make expectations about student behavior clear quite
a bit or a lot;” “88 percent reported that they were able
to get students to follow classroom rules quite a bit or
a lot;” “85 percent reported that they were able to
control disruptive behavior in the classroom quite a bit
or a lot;” and “80 percent reported that they were able
to calm a student who is disruptive or noisy quite a bit
or a lot.” Id. at 66. These statistics hardly indicate
that the public school system has become something
resembling a discipline-free zone because of students’
social media usage.
The misconceptions tainting the issue of off-campus
student digital expression simply do not stand up
against social science data collected over the years.
The evidence supports that social media usage has not
contributed to a decline in student behavior, nor has it
adversely impacted the school environment. The
reality is just the opposite, as numerous studies have
emphasized that social media is a powerful tool that
can be used to improve students’ learning experience.2

2

See, e.g., Antoine Van Den Beemt, Marieke Thurlings &
Myrthe Willems, Towards An Understanding Of Social Media
Use In The Classroom: A Literature Review, 29 TECHNOLOGY,
PEDAGOGY AND EDUCATION 35 (2020); Christine Greenhow and
Emilia Askari, Learning and Teaching with Social Network Sites:
A Decade of Research in K-12 Related Education, 22 EDUCATION
AND INFORMATION TECHNOLOGIES 623 (2017); Kevin M. Thomas ,
Blanche W. O’Bannon & Natalie Bolton, Cell Phones in the
Classroom: Teachers’ Perspectives of Inclusion, Benefits, and
Barriers, 30 COMPUTERS IN THE SCHOOLS 295 (2013) (finding that

15
TINKER’S APPLICATION OUTSIDE THE
SCHOOL ENVIRONMENT WOULD INFRINGE PUBLIC SCHOOL STUDENTS’
FIRST AMENDMENT RIGHTS
A. Tinker Should Not Be Extended to OffCampus Student Speech.
While Tinker’s narrow accommodation of the special
characteristics of the secondary educational environment is appropriate for student speech within the
schoolhouse gate, as well as for student speech at a
school-supervised or school-controlled event or setting,
it should not be extended to off-campus student
expression. To do so would “sweep far too much speech
into the realm of schools’ authority” and thereby result
in the chilling of students’ speech in violation of
their First Amendment rights. Levy, 964 F.3d at 187,
188-89. Indeed, applying Tinker outside of the school
environment will inhibit students’ expressive liberty
in contravention of this Court’s precedent, which in no
way suggests that school suzerainty may extend to
student speech in the community at large. To the
contrary, this Court’s quartet of public student speech
cases establishes that high school students’ speech
outside the school environment is presumptively
protected by the First Amendment unless the speech
is supervised or sponsored by the school.
As support for the novel proposition that Tinker
applies to student speech outside the schoolhouse
gate, both the School District (Pet. Br. 18-19) and the
United States (SG Br. 13-14) cite Grayned v. City
of Rockford, 408 U.S. 104 (1972). This reliance is
misplaced. In Grayned, this Court upheld the applica69% of teachers support the use of cell phones in the classroom
and presently use them for school-related work).

16
tion of an anti-noise ordinance to “approximately 200
people” who marched on a sidewalk “about 100 feet
from the school building [ ]” and whose activities
were noisy and diversionary to the extent that they
disrupted normal school activities by causing students
to be distracted in class and congregate near windows
to look at the protesters. Id. at 105. Petitioner and
the government aver that, since Grayned allowed the
punishment of speech by protesting adults outside a
school that had an impact inside the school, it a fortiori
supports Tinker’s application to punish speech by
students, irrespective of its location, that has a
“similarly disruptive effect” on school activities. SG
Br. 14; see also Pet. Br. 18-19. This argument glosses
over the fundamental point that Grayned involved a
content-neutral “time, place, and manner” regulation
intended to prohibit excessive noise volume from
interfering with orderly schoolhouse operations, and
in no way restricted expressive activity “before or after
the school session, while the student/faculty ‘audience’
enters and leaves the school.” Id. at 120 (emphasis
supplied). The ordinance’s application was limited to
“[n]oisy demonstrations” “next to a school, while
classes are in session[.]” Id. Thus, if the protesters
had engaged in the same activities a few blocks away
from the school — still outside of the schoolhouse gate
— the anti-noise ordinance would not have been
triggered. Id. (“Such expressive conduct may be
constitutionally protected at other places or times”).
Accordingly, Grayned is readily distinguishable and
fails to support Petitioner’s desire to extend Tinker to
off-campus speech wherever, whenever, and however
it occurs.
Further, in arguing that Tinker has never been
strictly confined to on-campus expression, the School
District attempts to evade Thomas v. Bd. of Educ.,

17
Granville Cent. Sch. Dist., 607 F.2d 1043 (2d Cir.
1979), cert. denied, 444 U.S. 1081 (1980), by contending that the decision “did not need to consider whether
Tinker applied to off-campus speech[.]” Pet. Br. 20.
We respectfully submit that this misreads the
Second Circuit’s holding in Thomas, which expressly
restricted Tinker’s application to student speech
deliberately introduced inside the school environment
because “when those charged with evaluating expression have a vested interest in its regulation, the
temptation to expand the otherwise precise and
narrow boundaries of punishable speech may prove
irresistible.” 607 F.2d at 1048. Thomas could hardly
be clearer that when “school officials have ventured
out of the school yard and into the general community
where the freedom accorded expression is at its zenith,
their actions must be evaluated by the principles that
bind government officials in the public arena.” Id. at
1050.
B. B.L.’s Speech Away From School Was
Impermissibly Punished Based on School
Authorities’ Disapproval of Her Choice of
Language.
It seems unlikely that the School District would
have punished B.L. had she Snapchatted “Screw
school screw softball screw cheer screw everything,”
which indicates that school authorities punished her
owing to their disapproval of her choice of profane
language outside of the school environment, where
it should be subject solely to parental control. See
Thomas, 607 F.2d at 1051 (“While these activities are
certainly the proper subjects of parental discipline, the
First Amendment forbids public school administrators
and teachers from regulating the material to which
a child is exposed after he leaves school each

18
afternoon.”). Importantly, there was no evidence of
disruption to the learning process or school activities
in Levy, merely the implausible claims that B.L.’s
snaps interfered with the “morale” and “chemistry” of
the cheerleading squad and violated viewpoint-based
team rules imposed by the School District on
cheerleaders. Levy, 964 F.3d at 184 n.10, 176. In other
words, Petitioner appears to have relied on this
Court’s rationale in Bethel Sch. Dist. No. 403 v. Fraser,
which allows for the regulation of “lewd, indecent,
or offensive” student speech in order to “teach by
example the shared values of a civilized social order.”
478 U.S. 675, 683 (1986); see also Cuff v. Valley Centr.
Sch. Dist., 677 F.3d 109, 188 (2d Cir. 2012) (Pooler, J.,
dissenting) (summarizing Fraser as “explain[ing] what
every parent already knows” because the holding was
based on “‘society’s countervailing interest in teaching
students the boundaries of socially appropriate behavior’”) (quoting Fraser, 478 U.S. at 681). However,
Fraser’s holding was strictly limited to an in-school
setting where a student gave a speech during a
mandatory assembly that included approximately 600
high school students, including many who were as
young as 14, as “part of a school sponsored educational
program in self-government.” 478 U.S. at 677. As the
Levy court correctly concluded, “Fraser does not apply
to off-campus speech.” 964 F.3d at 181.
In sharp contrast to Fraser, where the school needed
to dissociate itself from Matthew Fraser’s in-school
oratory presented to a captive audience of impressionable students, B.L.’s snap was an off-campus
expression of personal frustration by a high school
student who did not make her school’s varsity
cheerleading squad. By imposing punishment based
on disapproval of her choice of language outside the
school environment, the School District impermissibly

19
extended Fraser’s rationale to off-campus speech
delivered to a self-selected group of her social media
friends. Such an unwarranted expansion of school
authority runs headlong into Justice Alito’s emphatic
admonition in Morse that allowing school officials
to rely on a public school district’s self-defined
“educational mission” as a basis for regulating student
speech would amount to an alarming invitation to
viewpoint-based censorship that “strikes at the very
heart of the First Amendment.” Morse, 551 U.S. at
423 (Alito, J., concurring) (emphasis supplied). Stated
another way, “[i]f mere incompatibility with the
school’s pedagogical message were a constitutionally
sufficient justification for the suppression of student
speech,” a wide variety of protected expression could
be suppressed by school officials. Hazelwood Sch. Dist.
v. Kuhlmeier, 484 U.S. 260, 280 (1988) (Brennan, J.,
dissenting).
The First Amendment prohibits public school officials from censoring student expression outside the
school environment that employs objectionable or
inappropriate language regarded as incompatible with
a school’s official stance derived from “the inculcation
of whatever political and social views” (Morse, 551
U.S. at 423 (Alito, J., concurring)) are held by local
school boards — a constitutional imperative
scrupulously adhered to by the Levy majority.
C. Petitioner’s Boundless “Targeting”
Rubric Does Not Justify the Extension
of School Authority to Off-Campus
Public Student Speech.
A common rationale for the extension of school
disciplinary authority to social media expression
beyond the schoolhouse gate is premised on the notion
that schools need to be able to regulate speech that

20
“targets” the school or that is “aimed” or “directed” at
the school. See, e.g.¸ Bell v. Itawamba Cnty. Sch. Bd.,
799 F.3d at 393. As framed by Petitioner, this would
allow Tinker’s application to off-campus speech that
is “intentionally directed” at the school and that
“foreseeably reach[es]”3 the school environment. Pet.
Br. 27. But this elastic proposal provides no limit
whatsoever on school authority. For public high school
students — whose lives predictably center around
their school, school activities, and social connections
with their classmates — such an approach will
inevitably be over-inclusive.4 It renders speech that
would otherwise be constitutionally protected
vulnerable to the regulatory whims of school officials
any time the speech is about school affairs, discusses
school personnel, or mentions school students, opening
the schoolhouse gate to a broad array of student
expression in a manner never contemplated by Tinker
and disallowed by the First Amendment.

3

The provenance of the reasonable foreseeability element
espoused by Petitioner, which has infiltrated federal appellate
court public student digital speech decisions, traces to Judge
Newman’s suggestion in a footnote to the last sentence of his
concurrence in Thomas. 607 F.2d at 1058 n.13 (Newman, J.,
concurring). For a critique of this basic negligence concept’s
application to off-campus public student social media expression,
which has extended far beyond the original narrow parameters
proposed by Judge Newman, see Michael J. Grygiel, Back to the
Future: The Second Circuit’s First Amendment Lessons for Public
Student Digital Speech, 71 SYRACUSE L. REV. 1 (forthcoming April
2021).
4

The Solicitor General concedes this common-sense point. SG
Br. 23 (“Students spend much of their lives in school, or at school
activities, or doing schoolwork at home; one might therefore
naturally expect much of their speech to ‘target’ the school
environment in some fashion.”).

21
The application of Petitioner’s proposed limitation
confirms its constitutional infirmity. The School
District argues that whenever a student speaker
“refer[s] to school affairs or send[s] speech directly to
classmates” she is “direct[ing]” the speech at the
school. Pet. Br. 28. According to this reasoning, a
breathtaking scope of off-campus student expression
would be subject to school control.5 In the social media
context, the nature of many digital platforms,
including Snapchat, simply does not support the
targeting rationale. Posting a snap to a story, or
posting something on most social media platforms, is
altogether different from intentionally communicating
a digital message within a school-controlled environment or a school-supervised setting. It is indistinguishable for First Amendment purposes from a
student’s commentary about school affairs on a local
public affairs cable television program. Even though
many of the student’s classmates may be included in
the broadcast’s audience, and anything controversial
or critical that is said about the school or its personnel
is likely to come to the attention of school authorities,
that does not mean the student “targeted her speech
at campus” (Pet. Br. 30) merely by offering her
viewpoint on the program. The same is true even
when considering the features of social media plat5

Notably, the Solicitor General disavows the School District’s
position in this regard, recognizing that Petitioner’s invocation of
due process principles will not prevent the exposure of a “large
sphere of off-campus student communication” to school discipline,
in derogation of Tinker and in violation of the First Amendment.
SG Br. 21; see also id. at 22 (“There is, in short, no basis for
treating the immense amount of off-campus speech by students
as school speech that would potentially be subject to discipline,
even if it is about the school or might have some effect on other
students or the school environment.”).

22
forms more in line with “sending speech directly” (Pet.
Br. 28) to other students — e.g., by texting a message
to someone who happens to be a classmate. The fact
that a student may send a social media message
expressing frustration about a bad day at school to her
classmates, on a personal device after school hours,
does not mean that she has “directed” her speech at
the school. As the School District would have it, that
speech is potentially punishable.
In a pre-social media world, had the facts of this case
shown that B.L. delivered 250 leaflets to the homes of
the individuals in her social network, school officials
would not be authorized to punish her speech,
notwithstanding any subsequent disruptive impact
on the school environment. As the Third Circuit
emphasized in a decision that preceded Levy, “[i]t
would be an unseemly and dangerous precedent to
allow the state, in the guise of school authorities, to
reach into a child’s home and control his/her actions
there to the same extent that it can control that
child when he/she participates in school sponsored
activities.” Layshock ex rel. Layshock v. Hermitage
Sch. Dist., 650 F.3d 205, 216 (3d Cir. 2011) (en banc).
The First Amendment does not tolerate a student’s
punishment for off-campus criticism of her teacher or
coach communicated to a group of social media users
merely because some of her classmates are included in
that group.
The Court should reject the misguided “targeting”
rationale proposed by the School District, as Levy and
other courts have. Levy, 964 F.3d at 180 (“J.S. and
Layshock yield the insight that a student’s online
speech is not rendered ‘on campus’ simply because it
involves the school, mentions teachers or administrators, is shared with or accessible to students, or

23
reaches the school environment”). In today’s world,
students’ use of social media is ubiquitous.6 Their
social media profiles are nothing less than an extension of their personal voices and identities. In fact, as
used by student groups such as the amici, social media
is today’s telephone, underground newspaper, and
bullhorn all rolled into one — digital samzidat
amplifying the voices of the nation’s and the world’s
youth. Given the historical role that young citizens
have played in effecting positive change in our
country, a role which they will no doubt continue
to play through the use of social media platforms,
insulating students’ off-campus digital speech from
school control is vital to ensuring the protection of
their First Amendment rights as technologies and
methods of communication continue to evolve. See
Levy, 964 F.3d at 179-80 (noting that the Court
consistently applies established First Amendment
principles in the face of new communications technologies). Snapchat is not the equivalent of a virtual
classroom, nor is it a school-sponsored forum. Posting
a snap about school affairs or another student while
shopping at the mall, for example, does not convert
that shopping mall into the equivalent of a school
auditorium or cafeteria. A student does not target her
school when she posts on social media any more than
she does when she authors an op-ed in a local
newspaper, even if the op-ed criticizes a school
program or her athletic coach’s decision-making.7 The
6

Monica Anderson & Jingjing Jiang, Teens, Social Media &
Technology 2018, PEW RESEARCH CENTER (May 31, 2018),
https://www.pewresearch.org/internet/2018/05/31/teens-socialmedia-technology-2018.
7

Student members of the amici organizations have often
published op-eds in their local newspapers to discuss issues
affecting their schools. See, e.g., Emanuelle Sippy & Sanaa

24
“targeting” rationale undermines the foundation set
by Tinker by substituting a legal reality in which
public schools may potentially regulate anything that
student activist groups like the amici may say that
touches on school affairs, regardless of where or when
the group happens to say it, any time a school official
decides that the speech is inappropriate or disapproves of its message.
Indeed, as perhaps
unwittingly acknowledged by Petitioner, the only safe
course is if the off-campus digital speaker “does not
share the[ir] [communication] with anyone[.]” Pet. Br.
29. It is difficult to conceive of a more serious affront
to the First Amendment.
D. Participation in Extracurricular Activities Does Not Relinquish a Student’s
First Amendment Rights.
The United States contends that off-campus student
expression qualifies as “school speech” subject to
Tinker’s application when it “intentionally targets
specific school functions or programs regarding
matters essential to or inherent in the functions or
programs themselves[.]” SG Br. 24. This morphs into
the further claim that a public school may punish an
Kahloon, On the Kentucky school board and in their
communities, youth are making their voices heard, COURIERJOURNAL (Oct. 9, 2020), https://courier-journal.com/story/
opinion/2020/10/09/kbe-kentucky-youth-forefront-todays-student
-voice-movement/5902792002/; Arivumani Srivastava, School tax
credit bill will make Ky schools more unequal. Don’t override
governor’s veto, LEXINGTON HERALD LEADER (Mar. 26, 2021, 8:44
AM), https://www.kentucky.com/opinion/op-ed/article250227545.
html; Martha Aguirre Rubio & Raj Salhotra, Students should
have a say in next HISD Superintendent, HOUSTON CHRONICLE
(Mar. 25, 2018, 10:51 AM), https://www.houstonchronicle.com/
opinion/outlook/article/Students-should-have-say-in-next-HISD12777894.php

25
athletic team member who calls out the coach’s
competence on social media, despite acknowledging
that the same speech would be protected if posted
by another member of the student body who is not
a teammate. Id. at 25-26. Even putting aside the
obvious equal protection concerns raised by such
disparate treatment of student speakers, this argument is constitutionally problematic. See LaTrieste
Restaurant and Cabaret, Inc. v. Vill. of Port Chester,
40 F.3d 587, 590 (2d Cir. 1994) (equal protection
violation arises when “(1) the person, compared with
others similarly situated, was selectively treated;
and (2) that such selective treatment was based on
impermissible considerations such as . . . intent to
inhibit or punish the exercise of constitutional rights”)
(internal quotation omitted).
First, it “necessarily expands schools’ regulatory
authority in situations where off-campus student
speech criticizes a school-sponsored program or
activity — no matter how valid or legitimate the
criticism — and the punishment involves disqualification from or ineligibility for that same program or
activity.” Michael J. Grygiel, Back To the Future: The
Second Circuit’s First Amendment Lessons for Public
Student Digital Speech, 71 SYRACUSE L. REV. 1
(forthcoming 2021). As a prominent commentator has
stated, the circularity of the penalty justification is
self-evident: “[i]f the student speech opposes some
aspect of a school activity, the school — as long as the
punishment relates only to the activity in question —
can then justify its actions simply by pointing to the
speech’s potential to interfere with that particular
activity. This, of course, will often be easy — almost
tautological — to show.” Emily Gold Waldman,
Regulating Student Speech: Suppression Versus
Punishment, 85 Ind. L. J. 1113, 1129 (Summer 2010);

26
see also Levy, 964 F.3d at 188 (criticizing Tinker’s
“tautological” application to off-campus expression).
Allowing schools to leverage participation in
extracurricular activities to conform a student’s
off-campus speech to a school-approved narrative
portends disastrous consequences for a student’s
willingness to speak up in the face of, for example,
sexual misconduct or abusive conduct by a high school
coach or other adult in a position of school authority.
Bell v. Itawamba Cnty. Sch. Bd., 799 F.3d 379
(student’s YouTube rap video called out two high
school teachers/coaches for inappropriate conduct with
female students); Lowery v. Euverard, 497 F.3d 584,
596 (6th Cir. 2007) (high school football players signed
petition criticizing head coach’s abusive conduct and
violations of school athletic rules). As a result, student
speech that offers informed and valuable criticism
about a school program or sports team runs a real
risk of being suppressed under the guise that it is
disruptive to an “essential” or “inherent” school
function or program. This would allow school districts
to keep under wraps a wide swath of student whistleblowing exposing matters about which taxpayers are
entitled to know.
Second, participation in extracurricular activities
cannot equate to a waiver of a student’s First
Amendment rights. Levy, 964 F3d 192-94. It has long
been established that “‘courts indulge every reasonable presumption against waiver of fundamental
constitutional rights and . . . ‘do not presume
acquiescence in the loss of fundamental rights.’”
Johnson v. Zerbst, 304 U.S. 458, 464 (1983) (footnotes
omitted); see also Levy, 964 F.3d at 183 (rejecting
proposition that “B.L. abdicated her First Amendment
right to speak as a cheerleader”).

27
Third, in stripping B.L. from participation on the
cheerleading team, the School District denied her the
ability to participate in a school activity that mattered
to her, and did so solely because of what she said in
her snaps. When the government punishes someone
based on her speech, the comparative leniency of the
punishment — e.g., removal from a sports team rather
than suspension from school — does not control the
constitutional inquiry. Levy, 964 F.3d at 183; see
also Emily Gold Waldman, Badmouthing Authority:
Hostile Speech About School Officials and the Limits
of School Restrictions, 19 WM. & MARY BILL OF RTS. J.
591, 610 (2011) (“the notion that the free speech
inquiry should be ratcheted down when the punishment relates only to an extracurricular activity” raises
significant constitutional concerns) (footnote omitted).
As this Court has recognized, “even minor punishments can chill protected speech.” Ashcroft v. Free
Speech Coalition, 535 U.S. 234, 244 (2002). The issue
is not whether the speaker was deprived of a
government benefit, but whether the punishment at
issue would deter protected speech going forward.
Mendocino Envntl. Ctr. v. Mendocino Cnty., 192 F.3d
1283, 1300 (9th Cir. 1999) (“[T]he proper inquiry asks
whether an official’s acts would chill or silence a
person of ordinary firmness from future First
Amendment activities.”) (internal quotations omitted).
The constitutional right at issue is freedom
of expression, not that of participation in
extracurricular activities. That there is no
constitutional right to participate in . . .
extracurricular activities may be pertinent to
an analysis of other sorts of constitutional
claims, . . . but as Tinker itself notes, not to a
freedom of expression claim.

28
T.V. ex rel. B.V. v. Smith-Green Cmty. Sch. Corp., 807
F.Supp. 2d 767, 780 (N.D. Ind. 2011) (footnote
omitted).
If the government’s position were to prevail,
students would be confronted with a stark choice:
participate in extracurricular activities that are a
critical aspect of the competitive college admissions
process, or retain their right to unrestricted free
speech outside of school. The Levy court correctly
determined that no high school student should have to
make such a choice. 964 F.3d at 182 (“[W]e see no
sound reason why we should graft an extracurricular
distinction onto our case law.”).
MISFIRED DISCIPLINARY DECISIONS
CAUSE IRREPARABLE HARM TO THE
“ONCE IN A LIFETIME” EXPERIENCE
REPRESENTED BY HIGH SCHOOL
It is typically impossible as well as impractical for a
student to obtain judicial review and meaningful
redress prior to being harmed, often irreparably, by
a public school’s disciplinary decision. Thomas, 607
F.2d at 1052 (“Where, as here, the punishment is
virtually terminated before judicial review can be
obtained, many students will be content to suffer in
silence, a silence that may stifle future expression
as well.”). The moment B.L. was disciplined for her
Snapchat in 2017, she became stigmatized as a
disruptor with a formal record of the same. Only now,
four years later, and representing one of a select few
students who has persisted in seeking to vindicate her
First Amendment rights through the civil litigation
process, will she have the opportunity to shed that
label. Unfortunately, whatever negative impact B.L.’s
high school record may have had on her immediate

29
educational or employment prospects cannot be
meaningfully undone after the fact by this Court.
A perhaps overlooked but nevertheless important
point is that we leave to the same officials who handed
down B.L.’s disciplinary decision the authority to
memorialize it in her student record. We expect,
perhaps naively, that they will do so fairly. This is a
critical part of the process because B.L., or any other
student in her position, must answer affirmatively in
responding to college or employment applications
questioning whether they have ever been disciplined.
Unfortunately, it is unlikely that a typical student’s
disciplinary record is worded in a way that provides
them with the benefit of the doubt in the eyes of thirdparty stakeholders who have a hand in shaping a
student’s future, such as a college admissions officer
or potential employer. In such instances it is fair to
assume that the student’s disciplinary record will
state something along the lines of “violated policy on
student conduct” rather than “used a swear word
on social media while outside of school, in a nonthreatening manner and directed at nobody in
particular.” While each characterization may arguably be considered accurate, there is a tremendous
difference in how each statement is likely to be
received by the uninformed reader and, as a consequence, how the student is impacted. It is no stretch
to assume that a third-party reviewer is more likely to
eliminate the student from consideration if presented
with the former given that it appears, on its face, to
denote a more serious violation, whereas that same
individual is perhaps more likely to pause and
question the gravity or validity of the sanction if
presented with the context afforded by the latter.

30
Leaving these decisions to the same school administrators responsible for imposing the punishment in
the first place is a gamble with the student’s future
that the public student speech framework should not
permit us to undertake. Thomas, 607 F.2d at 1050-51.
These young people are at a critical point in their
formative years, the unique experience of which
cannot be recovered by a favorable court decision
eventually rendered years down the line. Because
judicial redress cannot adequately restore what a
school has wrongfully taken away, it is no answer to
say that a student punished for off-campus speech can
seek correction through the legal process years after
the fact. The opportunities lost to the student are
irretrievable; she cannot go back and join the cheer
squad, take another crack at a high school sports team,
recreate the college admissions process, or otherwise
redo this important part of her life. Thus, the law
should robustly protect in the first instance First
Amendment rights exercised outside the public school
setting because a student’s available remedies are
inadequate.
The principle upheld in Levy does
precisely that.

31
CONCLUSION
Based on the foregoing reasons, the judgment of
the Third Circuit should be affirmed.
Respectfully submitted,
VINCENT H. CHIEFFO
CAROLINE KORPIEL
1840 Century Park East
Suite 1900
Los Angeles, CA 90067
(310) 586-7700
chieffov@gtlaw.com

MICHAEL J. GRYGIEL
Counsel of Record
GREENBERG TRAURIG, LLP
54 State Street, 6th Floor
Albany, NY 12207
(518) 689-1400
grygielm@gtlaw.com

JASON K. HICKS
10845 Griffith Peak Drive
Suite 600
Las Vegas, NV 89135
(702) 792-3773
hicksja@gtlaw.com

KATIE TIPPER-MCWHORTER
1000 Louisiana Street
Suite 1700
Houston, TX 7700
(305) 579-0500
tipperk@gtlaw.com

GEROND J. LAWRENCE
Terminus 200
3333 Piedmont Road NE
Suite 2500
Atlanta, GA 30305
(678) 553-2100
lawrencege@gtlaw.com

JORGE COSS
2375 East Camelback Road
Suite 700
Phoenix, AZ 85016
(602) 445-8000
cossj@gtlaw.com

FRANCESCA CILIBERTI-AYRES
1144 15th Street, Suite 3300
Denver, CO 80202
(303) 572-6500
ciliberti-ayresf@gtlaw.com

BETH A. NORROW
450 South Orange Avenue
Suite 650
Orlando, FL 32801
(407) 420-1000
norrowb@gtlaw.com

Attorneys Pro Bono Publico for Amici Curiae
March 31, 2021

